<html>
<title> - THE RESET BUTTON HAS BEEN PUSHED: KICKING OFF A NEW ERA IN U.S.-RUSSIAN RELATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
THE RESET BUTTON HAS BEEN PUSHED: KICKING OFF A NEW ERA IN U.S.-RUSSIAN 
                               RELATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON EUROPE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2009

                               __________

                           Serial No. 111-42

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
51-655                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                         Subcommittee on Europe

                    ROBERT WEXLER, Florida, Chairman
JOHN S. TANNER, Tennessee            ELTON GALLEGLY, California
BILL DELAHUNT, Massachusetts         GUS BILIRAKIS, Florida
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
MICHAEL E. McMAHON, New York         TED POE, Texas
SHELLEY BERKLEY, Nevada              JOHN BOOZMAN, Arkansas
BRAD MILLER, North Carolina          BOB INGLIS, South Carolina
DAVID SCOTT, Georgia                 J. GRESHAM BARRETT, South Carolina
JIM COSTA, California
               Jonathan Katz, Subcommittee Staff Director
          Eric Johnson, Subcommittee Professional Staff Member
          Richard Mereu, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Philip H. Gordon, Ph.D., Assistant Secretary, 
  Bureau of European and Eurasian Affairs, United States 
  Department of State............................................    12
The Honorable Celeste A. Wallander, Ph.D., Deputy Assistant 
  Secretary of Defense for Russia, Ukraine and Eurasia, Office of 
  the Under Secretary of Defense for Policy, United States 
  Department of Defense..........................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Wexler, a Representative in Congress from 
  the State of Florida, and Chairman, Subcommittee on Europe: 
  Prepared statement.............................................     3
The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California: Prepared statement....................     5
The Honorable Philip H. Gordon, Ph.D.: Prepared statement........    15
The Honorable Celeste A. Wallander, Ph.D.: Prepared statement....    24

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57


THE RESET BUTTON HAS BEEN PUSHED: KICKING OFF A NEW ERA IN U.S.-RUSSIAN 
                               RELATIONS

                              ----------                              


                         TUESDAY, JULY 28, 2009

                  House of Representatives,
                            Subcommittee on Europe,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172, Rayburn House Office Building, Hon. Robert Wexler 
(chairman of the subcommittee) presiding.
    Mr. Wexler. The Subcommittee on Europe will come to order.
    First and foremost, I want to welcome our two outstanding 
witnesses, Assistant Secretary of State for European and 
Eurasian Affairs, Philip Gordon; and Deputy Assistant Secretary 
of Defense for Russia, Ukraine, and Eurasia Policies, Celeste 
Wallander.
    The President's recent Moscow summit and the 
administration's effort to reset relations between the United 
States and Russia comes at a critical juncture as we grapple 
with several major foreign policy challenges, of which one of 
the most difficult, complex, and consistently frustrating is 
America's relations with Russia.
    I agree with President Obama that there is an opportunity--
certainly there is--for increased dialogue, cooperation, and 
progress between the United States and Russia, if we especially 
reject and put to rest, to quote, in President Obama's words, 
``old assumptions, old ways of thinking,'' that the United 
States and Russia are destined to be ``antagonists,'' or that 
we are in a power struggle where a zero sum game is played and 
one side is the loser.
    Although there remain serious disagreements between 
Washington and Moscow on many issues, at the summit the Obama 
administration and Russian officials successfully began the 
process of resetting relations and agreed to a new strategic 
framework for United States-Russian military-to-military 
cooperation, reaffirmed a common commitment to prevent 
proliferation of nuclear weapons and nuclear terrorism, and 
signed an agreement allowing United States military personnel 
and equipment to transit across Russia to Afghanistan.
    Presidents Obama and Medvedev also signed a joint 
understanding of the Strategic Arms Reduction Treaty that will 
guide negotiations and commits both America and Russia to 
reduce strategic warheads and strategic delivery vehicles.
    Finally, a bilateral Presidential commission coordinated by 
Secretary Clinton and Foreign Minister Lavrov, with 13 high-
level working groups, will meet for the first time this fall to 
focus on a range of issues including civil society, terrorism, 
common threat assessment, economic relations, nuclear energy 
and nuclear cooperation, and space cooperation.
    As the administration pursues a more robust relationship 
with Russia, it will undoubtedly carefully navigate and make 
sense of the internal political dynamics and power struggles in 
the Kremlin and Russia, a weakened Russian economy and a 
growing values gap between the United States and Russia in 
terms of human rights, democracy, rule of law, corruption, 
economic transparency, and freedom of the press.
    It is hard to be overly optimistic about United States-
Russian relations as we approach the 1-year anniversary of the 
Russian-Georgian war, Russia's military and political presence 
in the breakaway regions of South Ossetia and of Abkhazia is 
hardening, President Medvedev has renewed threats to place 
short-range missiles on Russia's border with Poland, and 
another prominent Chechen human rights activist has been 
brutally murdered without judicial recourse.
    There is no more pressing issue on the United States-
Russian reset agenda than Iran's development of nuclear 
weapons. To date, Russia's actions suggest anything but a real 
partner in deterring Iran's nuclear program. In fact, Russia 
has failed to implement Security Council resolutions and their 
accompanying sanctions, continues to build the Bashir nuclear 
power plant, and provides the Iranian Government with lethal 
weapons, even signing an agreement to sell the S-300 
antimissile defense system to Tehran.
    Twenty years after the revolutions in 1989 and the fall of 
the Iron Curtain, many Central and Eastern European nations 
feel increasingly threatened by a resurgent Russia. America 
must take these concerns seriously, continue to unequivocally 
reject a Russian sphere of influence, assist Europe in its 
quest for energy security, expand the visa waiver program to 
include allies, and consult closely with European governments, 
including Poland and the Czech Republic, on missile defense. We 
must also strengthen NATO follow-through on efforts to provide 
credible defense plans for Alliance members, and state 
unequivocally America's unwavering obligation to our Article 5 
commitments.
    [The prepared statement of Mr. Wexler 
follows:]<greek-l>Wexler statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. With great pleasure, I would now like to invite 
the ranking member, Mr. Gallegly from California, to give his 
opening remarks.
    Mr. Gallegly. Thank you very much, Mr. Chairman. If I could 
just yield to Mr. Wilson, I have my statement that I will have 
for the record, but if I could have a couple minutes.
    Mr. Wexler. Certainly. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And Mr. Chairman, 
thank you for calling this meeting. I studied Russian history 
at the Citadel when I was in college. I have had the 
opportunity to visit Moscow and St. Petersburg for the last 20 
years, and I have seen the restoration of cities that were run 
down, now restored to be beautiful centers of culture.
    I have had the opportunity to visit Western Siberia and the 
Yekaterinburg, and Tomsk, Novosibirsk. The city I represent, 
Columbia, is the sister city of Chelyabinsk. We are very proud 
of the relationship. Having grown up in Charleston, South 
Carolina, we had a significant number of citizens who had 
emigrated from Russia. So I grew up with a great appreciation 
of the Russian culture which has had such a positive impact on 
American culture. And when we visit, my experience has been 
extraordinarily friendly people who want to have a positive 
relationship with the United States.
    I also work very closely to promote Rotary Clubs to be 
developed in Russia. This is obviously nonpolitical. It is 
where business people can network. And there are over 100 clubs 
today in Russia and the people--members can network by 
attending clubs in Japan, India, Germany, United States, around 
the world, thousands of clubs. And it is a way for the Russian 
business leaders, men and women, to understand the benefits of 
free market democracy.
    So I am very grateful that Rotary now has a very 
significant presence, and I am very grateful to be the host to 
Rotarians from Russia when they visit here in the United States 
or in Washington.
    So I want to wish you well on your presentations today, and 
I am very hopeful for a positive reset. Thank you.
    Mr. Wexler. Thank you.
    [The prepared statement of Mr. Gallegly 
follows:]<greek-l>Gallegly statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wexler. I want to invite the other members who have 
been so kind to join us to have some opening remarks, and just 
beg the panel's deference just in terms of timing. Take the 
time you wish, just so we can get to the witnesses. And I thank 
really everyone for coming. We have had a great turnout.
    Congressman Scott.
    Mr. Scott. Thank you very much, Mr. Chairman. I appreciate 
this hearing. I think it is a very important hearing.
    Long an adversary, and now something less, although I dare 
not say a friend quite yet, that is the situation with Russia. 
Russia presents us with quite a dilemma with respect to 
achieving our long-term foreign policy goals as well as long-
term peace and stability worldwide. By that I mean on the one 
hand, Russia seems willing to help mitigate the nuclear 
proliferation threats in Iran and North Korea. And having just 
visited there earlier this month, spending about 1 week, I see 
this kind of schizophrenic dichotomy of the mindset of Russia. 
On the one hand, they want to help with Iran and North Korea; 
but on the other, we have seen them distribute nuclear 
technology to Iran and to Syria, both of whom have stated 
desires to obtain nuclear weapons and to use them for nefarious 
purposes. That one example best illustrates the schizophrenic 
dichotomy of mind that Russia is in.
    On the one hand, they are willing to mitigate, they seem to 
be offering a hand to mitigate, but the reality is they are 
sending nuclear technology to these countries, both of whom 
which have stated desires to obtain nuclear weapons and, in 
fact, to use them.
    We have seen them bloviate and threaten over U.S. missile 
defense programs. We have also seen Russia use its natural gas 
supplies to stick it--with a huge stick to beat the Europeans 
and some of their satellite nations about the head and 
shoulders. They have cut the gas off in places like Lithuania 
and using it political means--and the Ukraine. These are 
documented. But what troubles me most, Mr. Chairman, as I 
witnessed when I was over there, was Russia's internal actions.
    So the question becomes: Can we truly count on Russia as a 
partner--or, more to the point, should we--when they seem 
content to backslide on the treatment of their own people? We 
see opposition voices snuffed out, murderers of journalists and 
activists go unpunished. We see rampant corruption and 
political cronyism at every level of government, and especially 
in the judiciary.
    We see expropriation of private sector enterprises. Every 
day, it seems, the Russian people lose more and more personal 
freedoms, and the government seems to be becoming more and more 
authoritarian.
    And so I worry, Mr. Chairman, that sooner rather than 
later, because of all of this internally, Russia might not be 
in a position to help us because of internal strife that 
inevitably rises out of such action.
    Russia officials, including President Medvedev, have said 
that Russia will not agree to limit offensive nuclear weapons 
unless the United States suspends its plans to deploy a missile 
defense site in Poland and the Czech Republic. But even if this 
was on the table to negotiate as an item, we still do not know 
which hand Russia is playing with.
    The fundamental question that the administration has to 
answer I think is: Does this reset of relations with Russia 
mean that democracy and human rights issues will be placed on 
the back burner?
    Now, please don't make any mistake, Mr. Chairman, for 
saying that Russia is a lost cause. I am not saying that. Far 
from it. But I do believe that we have to deal very frankly and 
openly and from positions of strength in dealing with the 
Russians. Russia has tremendous potential to assist us and the 
rest of the world in reaching stability and prosperity.
    No other two nations have in their hands the future of this 
planet as Russia and the United States. However, I am worried 
about the level to which we must help Russia to help itself 
before they can help us and the world. And I am just not sure 
that we have all of the resources and/or the time to effect the 
internal change in Russia so that they are in a better position 
to help us in the world.
    But that being said--and that is why this hearing is so 
important--I for one certainly think we as a Nation must try. 
Thank you.
    Mr. Wexler. Thank you.
    Chairman Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman. And thank 
you for holding this oversight hearing on the bilateral 
relationship between the United States and Russia. I would also 
like to welcome Assistant Secretary Gordon and Deputy Assistant 
Wallander as well to the hearing this afternoon.
    You know, Mr. Chairman, few relationships in the 
international arena are as important as our ties with Russia. 
At the same time, few relationships have the potential of being 
derailed because of misunderstandings and competing interests.
    In this regard, I believe that the establishment at the 
recent summit in Moscow of the U.S.-Russian Bilateral 
Commission, which is intended to improve communications and 
diplomacy on a wide range of issues, is definitely a step in 
the right direction. This is an essential relationship, one 
that has important implications for the U.S. National security 
in such critical areas as counterterrorism, the war in 
Afghanistan, and certainly the issue of nonproliferation.
    Needless to say, despite the progress made at the summit 
meeting, there are still differences between the two countries 
on issues such as NATO expansion, missile defense, energy 
security, development in the Balkans, human rights, and the 
best strategy for dealing with the threat of a nuclear armed 
Iran.
    I look forward to the discussion today, and I would also 
like to hear comments from our witnesses today about the recent 
statements that were made by Vice President Biden as it relates 
to his assessment of the strength and prominence that Russia 
plays in the world today. There seems to be some inconsistency, 
and I would just like to know whether that is really speaking 
on behalf of the administration and maybe some 
misinterpretation on my part and the parts of others. And, 
again, thank you for calling this hearing today. I look forward 
to all our participation. Thank you.
    Mr. Wexler. Thank you.
    Just in order of appearance, Mr. Miller. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. And I appreciate your 
leadership, Mr. Chairman, in holding this hearing. And I hope 
that you will continue to provide leadership on this issue, 
because our relationship with Russia will go a long way to 
determining whether or not our country lives at peace and our 
people are secure, and will have a lot to do with American 
prosperity and security in the future.
    I actually think that Russia is a vital component to 
America's future, a component that we have taken for granted. 
And let me just say we need to make an effort--perhaps this 
hearing is the first one--to try to undo some of the damage 
that has been done for the last 20 years of what I consider to 
be senseless American hostility toward our former Soviet enemy, 
which was now and should have been treated as our current 
Russian friends.
    This hostility and diplomatic incompetence has turned what 
could have been a great friendship that would have well served 
both of our countries into a situation today that it could go 
in either direction. And I do not place that fault on the part 
of the Russians.
    Let me just note that we can describe in hostile words and 
in sinister phrases the things that the Russians have been 
doing. But, in reality if you look at them, does anyone expect 
the United States should sell its natural gas and our reserves 
and our products at a level lower than market value? Yet, when 
the Russians try to do this, they are described as being 
involved in some sort of heinous scheme.
    If Russia was involved with putting up an anti-missile 
system on our borders or participating in a military alliance 
after the United States withdrew from an area, and ended up 
putting a military alliance on our border, would we consider 
that a hostile act? We certainly would.
    I was as Cold Warrior as a Cold Warrior could be. I wrote 
many of the speeches Ronald Reagan gave that were called the 
hard-core anti-Soviet speeches of the day. I wrote them. I 
worked with the President on those speeches. I engaged in 
military action against Russian troops in Afghanistan and 
probably killed a few.
    I can tell you, this is a different world than it was then, 
and we have to reach out to the Russians or we will suffer 
because of it.
    Today we have great opportunity to reset that relationship. 
And one of the things, one of the few things I can say that I 
totally support the Obama administration is in its efforts to 
reset and reestablish a good relationship and a friendship with 
the Russian people that will help us confront the two 
challenges aligned with this.
    There are two challenges that face our country. Just as 
Soviet communism was the threat when I was a young man, the 
threat today is radical Islam. They declared war on us. They 
slaughtered 3,000 of our people, just as they slaughtered 
hundreds of children in Russia, I might add. And Communist 
China, which hasn't one inch of reform, and we have been 
treating them like our business partners while Russia has had 
dramatic reform and we have treated them as if they were still 
some Communist despotism.
    So with that said, we need to work with this. Thank you, 
Mr. Chairman. I plan to work with this and the administration 
to set things straight.
    Mr. Wexler. I thank the gentleman for his kind and 
thoughtful remarks.
    And, Congressman Delahunt, you try to top that.
    Mr. Delahunt. Well, if you would give me 1/2 hour, Mr. 
Chairman, I might be able to even exceed it.
    I was joined by the ranking member and Mr. Scott and Mr. 
Sires, along with the chairman of the full committee, recently 
on our trip to Moscow. It was very informative. I want to 
congratulate both the Department of State and the Department of 
Defense for I think a very valuable effort, and I think the 
results are concrete.
    I agree with others who have stated this is an extremely 
important relationship because it has been noted, correctly so, 
that in excess of 95 percent of the nuclear weapons on the 
planet today are in the possession of the United States and 
Russia. It is a relationship that has to work. I left Moscow, 
observing the summit which I thought was a solid success, that 
it is more than rhetoric. I think the reset button has been hit 
and I think that progress is being made. I think we have to be 
realistic in terms of our expectations. It did not reach the 
low point the nadir, if you will, overnight. And it is going to 
take time to restore it to what I think both nations wish to 
see: A mutually respectful relationship.
    And I think that both sides have to be careful as well in 
terms of our rhetoric. You know, it is easy to--passion 
sometimes overcomes good judgment when words are being used. 
And we have learned, I think, that words do have consequences. 
Words that have been uttered in the past 8 years have I think 
impaired and hurt the United States national security 
interests. But that is the past, and I think that we are 
embarking on a new course. I note that there has been an 
agreement that has been reached, a memorandum of understanding 
between HHS and its counterpart in Russia.
    I want to speak to you, Mr. Gordon, about an effort that I 
think is worthy of serious consideration, and have spoken to 
our counterparts in the Russian Duma and the Federal Council 
relative to exchanges with a particular focus on sports, 
bringing young people from Russia and sending our young people 
over there for better understanding.
    I think it was Mr. Scott that really emphasized there seems 
to be a mystery. I think the key to unlocking that mystery is 
more understanding, more communication, and real clarity. You 
know, we hear even on this panel some reservations and even 
among the American people about what is happening in Russia. 
But we can't lose sight of the fact that polling data in Russia 
indicates that more than two-thirds of the Russian people have 
a negative view of the United States. We have got to address 
that. If we don't address that, our, I think, shared and mutual 
interest and our goal will not be achieved.
    But again, let me congratulate you and also the President 
for the good work, and let's just keep on keeping on. I yield 
back.
    Mr. Wexler. Thank you.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for being 
here today. I was also one of the individuals, Members of 
Congress, who traveled to Russia recently. And I found a very 
interesting--how can I say? In the people that we met, there 
seemed to be An Old Guard and a New Guard, and obviously the 
New Guard seem to be more receptive to some of the ideas while 
the Older Guard that we talked to seemed to be a throwback to 
the Cold War.
    Even when Congressman Delahunt asked about a question, two-
thirds of the Russians do not trust or like the Americans, the 
person that jumped right away to answer the question, to me, 
was the Old Guard. And he was resentful. He did not like or 
trust Americans. I don't know how you deal with that in 
negotiations, because who is going to set the direction for 
Russia in the future?
    We also talk about the problems with the journalists, the 
lack of human rights, the shutting down of TV stations. Is that 
the new Russia, or is that the pressure from the old Russia 
advancing ahead?
    So I think we have our work cut out for us. I think, like 
everybody else, that we have to be very careful. I certainly 
share that we have to negotiate, not backing away but just 
confronting and dealing with the problems. So congratulations 
on some of the negotiations that you have done thus far. And, 
Chairman, thank you very much for holding this hearing.
    Mr. Wexler. Thank you.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. I will be 
brief because I want to hear the witnesses.
    I concur with much of the statements that have been made 
from my colleagues on both sides of the aisle here. This is a 
very important relationship. It has not gone as well as I think 
either country would have liked to see in the last 15, 20 
years. The opportunity of this new administration to hit the 
reset button I think provides a chance for both countries to 
reset and to put their priorities on the table. Those 
priorities have, I think, complementary issues that we share in 
common. There are some obvious conflicts and differences of 
point of view that were noted by Mr. Rohrabacher and Mr. 
Delahunt.
    I am especially interested to hear our witnesses talk 
about, as we look at resetting, on how we focus on not only the 
Middle East, but South Asia as it relates to the challenges 
both countries face with a potential Iran that is seeking 
nuclear weapons.
    I am also looking at our relations with Europe and the 
former Soviet republics that are now independent, and that 
sphere of influence as Russia looks at it, as we look at it. 
And then your suggestions on, as we look at trying to develop a 
friendship that really should exist in more meaningful ways, in 
my view, what the milestones ought to be. In other words, what 
we should expect in the next 6 months, the next year, the next 
2 years as we move in a more positive direction. So I will be 
looking forward to that testimony.
    Mr. Chairman, I also think it is maybe appropriate to note 
when we talk about Russia and its former sphere of influence, I 
have an exchange student here from Belarus, Veronica 
Blechovich, and she and her fellow students are in the Capitol 
watching democracy in action. So we welcome her and her fellow 
students. Thank you very much, Mr. Chairman.
    Mr. Wexler. Thank you. And welcome on behalf of the 
committee.
    Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. And thank you for 
convening this very important hearing. I too will be brief 
because we have great witnesses and we want to hear from them.
    I think when I contemplate Russia, I am reminded of what 
Will Rogers said when he said that Russia is a country that, no 
matter what you say about it, it is true. And as you know, he 
said that over 70 years ago and yet it is still relevant today. 
Russia's political, social, and economic dynamics are highly 
complex, contradictory, and nonlinear. I think most U.S. 
lawmakers, as was noted by my colleague from the great State of 
New Jersey, Mr. Sires, most U.S. lawmakers will note that there 
seems to be a values gap between the United States and Russia 
which has been demonstrated time and time again through their 
domestic political developments.
    The same can be also seen in Russia's foreign policy. The 
Ukrainian gas disputes and the Russia-Georgia conflict of just 
this last year raises questions about Russia's capacity to be a 
responsible stakeholder in the international community. And 
just this year, we witnessed Russia withdrawing its candidacy 
from the World Trade Organization and resorting to a customs 
union with Belarus and Kazakhstan after waiting for membership. 
It is becoming increasingly clear that Russia is accustomed to 
isolation, and this is clearly not the appropriate strategy we 
would hope and not the one most beneficial for the rest of the 
world.
    A Russia integrated into the international system is a 
Russia that would be more likely to behave according to 
internationally accepted norms of behavior and lead to a safer 
world. That is why I support the administration's decision to 
engage with Russia on matters of nonproliferation and energy 
security, and I am encouraged by proposals to promote further 
exchanges between Russia and the United States to close what I 
refer to as the values gap between our two countries.
    However, Russia's refusal to agree to tougher sanctions 
against Iran in exchange for a new nuclear arms deal and in 
pursuit of its military bases in Syria and Libya, makes me 
wonder how much we should give through these talks. I hope that 
Secretaries Gordon and Wallander will address these issues, and 
we thank them for their testimony here today. Thank you, Mr. 
Chairman.
    Mr. Wexler. Thank you.
    Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman. And thank you so much 
for being here. I chair the Transatlantic Dialogue, which is an 
ongoing discussion between Members of Congress and our European 
Union Parliament counterparts. We meet twice a year, once in 
Europe and once here in the United States. In our last meeting, 
we met in the Czech Republic. And prior to the meeting, the 
American delegation went to Estonia and Lithuania in order to 
show our support to the Baltic republics.
    In our conversations with their government officials, there 
was--they communicated to us their extraordinary concern about 
a Russian--about the fact that they were concerned that they 
would be sucked back into the Russian sphere of influence. We 
also had an opportunity to meet with Belarusian dissidents, and 
they also expressed the same concern.
    I am hoping in your discussion today you will share with me 
what our relationship will be with the Russians vis-a-vis the 
Baltic republics. They are very concerned that we are going to, 
in an effort to have a thawing of relations with Russia, that 
we will in fact back away from our support for them. And they 
expressed that concern time and again. So if I could ask you in 
your very wide-ranging discussion today to hit upon those 
issues, I would be very grateful. And I thank you again for 
being with us.
    Mr. Wexler. I want to thank all of the members for their 
thoughtful remarks.
    Our first witness is Dr. Philip Gordon, Assistant Secretary 
of State for European and Eurasian Affairs at the United States 
Department of State. Prior to this appointment, from 2000 to 
2009, Dr. Gordon was a senior fellow at the Brookings 
Institution in Washington, DC, where he focused on a wide range 
of European and United States foreign policy issues. Prior to 
joining Brookings, Dr. Gordon served as director for European 
Affairs at the National Security Council under President 
Clinton. Dr. Gordon has held numerous teaching and research 
positions, and he is a prolific writer on international 
relations and foreign policy issues and has been a frequent 
contributor to major publications such as the New York Times, 
the Washington Post, International Herald Tribune, and the 
Financial Times. Dr. Gordon holds a Ph.D. in European Studies 
from Johns Hopkins University.
    Our second witness is Dr. Celeste Wallander, Deputy 
Assistant Secretary of Defense for Russia, Ukraine, and Eurasia 
in the Office of Under Secretary of Defense for Policy at the 
United States Department of Defense. Previously, Dr. Wallander 
has served as a professor in the School of International 
Service at American University, a visiting professor at 
Georgetown University, director and senior fellow of the Russia 
and Eurasia program at the Center for Strategic and 
International Studies, a senior fellow at the Council of 
Foreign Relations, and professor of government at Harvard 
University.
    Dr. Wallander is also the founder of the Program on New 
Approaches to Russian Security and the Eurasian Strategy 
Project. She is an expert on Russian foreign and security 
policy and Eurasian security relations, institutions, and 
military and defense issues, including conflict escalation and 
intervention. She has authored numerous books, articles, and 
other publications on these topics, including the role of NATO 
and the geopolitics of energy. Dr. Wallander holds a Ph.D. in 
Political Science from Yale University.
    With that, Dr. Gordon, please. Thank you for your patience.

 STATEMENT OF THE HONORABLE PHILIP H. GORDON, PH.D., ASSISTANT 
  SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, UNITED 
                   STATES DEPARTMENT OF STATE

    Mr. Gordon. Thank you, Mr. Chairman, for holding the 
hearing. And thanks to all the members of the committee for 
being here and for your thoughtful opening comments. I 
appreciate the opportunity to speak to you today about the 
administration's achievements in Moscow at the summit between 
President Obama and President Medvedev. I have submitted my 
full testimony for the record, but here, if you permit, would 
like to just make some introductory remarks briefly. And let me 
begin by putting the results of the summit into a somewhat 
wider context.
    The Obama administration entered office seeking to put an 
end to a period of difficult and deteriorating relations with 
Russia. Last December, then President-Elect Obama called for a 
reset in our relations with Russia, and he argued that the 
United States and Russia have common interests in a number of 
areas including, for example, nuclear nonproliferation, 
terrorism in Afghanistan. There are many others. And he argued 
that it should be possible to cooperate practically in these 
areas, even as we disagreed with Russia in other areas. And I 
think, and we will try to explain today, that the results of 
the Moscow summit demonstrate that the President's instincts on 
this were correct.
    Just 6 months since the President took office and just 3 
months since he met with President Medvedev in London and 
announced the upcoming summit, the United States and Russia 
have gone far toward achieving this fresh start. Not only have 
our leaders made progress in improving the tone of our 
relations and in building good will between our two countries, 
but as the Moscow summit demonstrates, we have succeeded in 
translating the rhetoric about potential collaboration into 
concrete actions that are fundamental to the security and 
prosperity of both of our countries.
    The significant progress in our relations with Russia, let 
me stress, did not in any way come at the expense of our 
principals or partnerships with friends and allies. There are 
still many areas where the United States and Russia disagree 
and we will continue to disagree. This issue was raised by some 
of you and I look forward to addressing it. The President made 
this quite clear in Moscow.
    At the same time, we demonstrated in Moscow in real terms 
our shared desire to build a relationship based on mutual 
respect and common interests, and I think we succeeded in a 
number of concrete areas.
    First and foremost, the United States and Russia took 
important steps to increase nuclear security and prevent the 
spread of nuclear weapons, beginning with the reduction of our 
own nuclear arsenal. The two Presidents signed a joint 
understanding for a follow-on agreement to start that commits 
both parties to a legally binding treaty that will reduce our 
nuclear warheads and delivery systems by at least one-third 
compared to our current treaty limitations.
    They also agreed to participate in a joint threat 
assessment of the ballistic missile challenges of the 21st 
century, including those presented by Iran and North Korea. An 
interagency team of experts is already heading out to Moscow 
this week to begin discussions.
    Second, we made concrete commitments to deepen security 
cooperation, including by working together to defeat violent 
extremists and to counter transnational threats, including 
those of piracy and narcotics trafficking. At the summit, 
chairman of the Joint Chiefs of Staff, Admiral Mullen, and his 
Russian counterpart agreed to a work plan for resuming 
military-to-military cooperation in areas such as 
counterterrorism, search and rescue, and counter-piracy.
    Another I think very tangible result of the summit was 
Russia's agreement to allow the United States to transport its 
military personnel and equipment across Russia in support of 
the NATO-led international security and assistance force as 
well as our coalition partners in Afghanistan. This agreement 
will add flexibility and further diversify our crucial supply 
routes resulting in a potential savings of up to $133 million 
in fuel maintenance and other transportation costs.
    The significance of this contribution to our effort to 
bring peace and stability to Afghanistan, which is also of 
strategic benefit to Russia, should not be understated. I think 
it is an excellent example of how the two countries can 
cooperate in the pursuit of common interests without any quid 
pro quos. We also agreed to strengthen cooperation in 
nonstrategic areas, including public health and the restoration 
of a Joint Commissioner on Prisoners of War and Missing in 
Action.
    Finally, President Obama and President Medvedev recognized 
the need for a more structured foundation for advancing our 
cooperation in key areas across respective interagencies. The 
bilateral Presidential Commission, to be chaired by the two 
Presidents and coordinated by Secretary of State Clinton and 
Foreign Minister Lavrov, will provide a mechanism for 
sustaining and expanding the progress we achieved in Moscow 
while also providing for ways in which we can work together to 
narrow our differences.
    Notwithstanding all of these positive developments, let me 
be clear we have no illusions that the reset of relations with 
Russia will be easy or that we will not continue to have 
differences with Russia. Nonetheless, we are confident that the 
United States and Russia can work together where our interests 
coincide, while at the same time seeking to narrow our 
differences in an open and mutually respectful way, be it on 
questions of human rights, again raised by members of the 
committee, or Russia's unlawful recognition of Georgia's 
separatist regions.
    In this regard, the President was unequivocal in his 
message that our reset in the bilateral relationship will not 
come at the expense of our friends and our allies. More than in 
words but in actions, we demonstrated our commitment to the 
territorial integrity and independence of Russia's neighbors, 
including Ukraine and Georgia.
    To conclude, Mr. Chairman, at the Moscow summit the United 
States and Russia took significant steps forward in translating 
the reset in relations into concrete achievements, to the 
benefit of both of our nations and our global partners. Without 
abandoning our principles or our friends, we demonstrated that 
the United States and Russia can work effectively together on a 
broad range of issues.
    I thank you all for inviting us to testify, and look 
forward to the discussion.
    [The prepared statement of Mr. Gordon 
follows:]<greek-l>Philip Gordon deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. Thank you very much
    Dr. Wallander.

STATEMENT OF THE HONORABLE CELESTE A. WALLANDER, PH.D., DEPUTY 
ASSISTANT SECRETARY OF DEFENSE FOR RUSSIA, UKRAINE AND EURASIA, 
  OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR POLICY, UNITED 
                  STATES DEPARTMENT OF DEFENSE

    Ms. Wallander. Thank you, Mr. Chairman. Chairman Wexler, 
Ranking Member Gallegly, and members of the subcommittee, thank 
you for this opportunity to appear before you today to discuss 
the recent U.S.-Russia summit in Moscow and its implications 
for the bilateral relationship, global and regional security 
challenges, and American national interests.
    I have long been a teacher, scholar, and analyst of Russian 
foreign and security relations, but preparing for and 
participating in the Moscow summit was my first opportunity to 
contribute to the practical policy work of developing and 
implementing America's strategy for working with Russia, where 
possible, in order to protect and advance American national 
interests. I am privileged to be asked to report on the results 
of the summit and answer your questions. With your indulgence, 
I have a longer statement that I would like to submit for the 
record and will keep my opening remarks brief.
    When Vice President Biden declared in February at the 
Munich Wehrkunde conference that it is time to press the reset 
button, he set in motion a process of working to create a 
better foundation for pragmatic cooperation in areas where the 
United States and Russia agreed, as well as structures to 
address our differences where we do not. Simply declaring the 
reset itself did not create a more pragmatic relationship; it 
created an atmosphere in which laying the foundation would be 
possible in order to better secure American interests. His 
statement was followed by an intensive and productive series of 
meetings at the highest levels, including between President 
Obama and President Medvedev in London in April, as well as 
numerous working-level bilateral meetings.
    The Moscow summit was therefore the first opportunity to 
test whether the reset of United States-Russia relations could 
produce pragmatic results. And it did. It was a test of whether 
the United States and Russia can work together to address core 
defense and security challenges, including strategic arms 
reductions, Afghanistan, proliferation of dangerous 
technologies, military relations, and missile defense. And the 
results were strikingly positive.
    The summit was successful beyond expectations, and most 
notably in the areas of defense and security. Of the eight 
agreements and statements signed at the Moscow summit, seven 
addressed defense and security challenges. Beyond the specific 
agreements, the success is measured in the pattern of pragmatic 
negotiations, constructive discussion before and during the 
summit. The ongoing test of the reset will be whether Russia 
will continue to engage in the pragmatic cooperation and 
serious negotiations we have seen in the past months.
    I would like to highlight two important summit achievements 
of these seven in the defense area. The first is the Lethal 
Transit Agreement. After weeks of intensive and constructive 
negotiations, William Burns, the Under Secretary of State for 
Political Affairs, and Foreign Minister Sergei Lavrov signed a 
bilateral agreement which will allow transit of lethal material 
and military personnel through Russian airspace. The agreement 
permits up to 4,500 military and unlimited commercial flights 
per year. It will result in significant savings over the use of 
other routes, and allows us to diversify our supply lines, thus 
reducing transit times and fuel usage.
    The second agreement I would like to highlight is the 
Military-to-Military Cooperation Framework. Admiral Michael 
Mullen and General Nikolai Makarov signed a new framework on 
military-to-military cooperation. This framework changes the 
nature of the United States-Russia military-to-military 
relationship, which will now be based on principles of 
pragmatism, parity, reciprocity, balance, and synchronization 
with NATO. The framework establishes conditions that will raise 
military cooperation to new qualitative levels and deepen 
mutual understanding between our respective Armed Forces. We 
have agreement on a work plan with Russia which will include 
nearly 20 exchanges and operational events before the end of 
this year. And, in addition, the U.S.-European Command and the 
Russian Ministry of Defense have agreed to meet to plan a 
robust and even more ambitious work plan for 2010.
    At the same time, the summit offered the opportunity for 
the United States to clearly affirm our commitment to the 
security and stability of countries throughout Europe and 
Eurasia. We continue to support the sovereignty of all states 
regardless of geographic location. President Obama clearly and 
repeatedly made this point while in Moscow, in both public 
statements and private meetings. We do not accept zero sum 
thinking regarding security in Europe and Eurasia, and we 
continue to believe that stable democracies on Russia's borders 
contribute to not only Europe's security but to Russia's as 
well. President Obama made clear during his meetings with 
President Medvedev and Prime Minister Putin that U.S. support 
for Georgia's sovereignty, independence, and territorial 
integrity is steadfast and unequivocal.
    President Obama also expressed U.S. support for Ukraine, an 
important strategic partner. He reiterated support for 
Ukraine's right to choose its own alliances based on its 
sovereign rights as an independent nation.
    The Department of Defense will continue to support both 
countries' efforts to transform and restructure their 
militaries into modern joint professional and NATO 
interoperable forces.
    Despite disagreement on Georgia and Ukraine, Russia clearly 
seeks to engage with NATO in the NATO-Russia Council and in 
NATO-Russia Military-to-Military Cooperation. Russia's strong 
security concerns regarding Afghanistan and the instability, 
crime, and extremism that an unstable Afghanistan breeds have 
moved President Medvedev to a pragmatic, cooperative stance, 
which we should build upon, given NATO's mission in 
Afghanistan.
    After the summit, our task is to follow up on the 
agreements reached, and continue to work with Russia and our 
allies in areas where we did not agree. The most promising 
mechanism for this work will be the bilateral Presidential 
commission that the Presidents agreed to create. With a 
pragmatic and constructive atmosphere established in our 
bilateral relationship, the United States can, as a result of 
the summit, work now for success in addressing issues where we 
have disagreed with Russia. In an atmosphere in which Russia no 
longer sees U.S. engagement and policies in zero sum terms, 
countries in the region will be able to engage more 
productively with Russia and pursue their own global 
integration and security interests.
    So we had an ambitious agenda for the Moscow summit. And 
while we did not achieve everything on the list with this first 
step, we made significant progress on a number of very 
important issues and achieved very real agreements in the 
defense and military spheres. The United States and Russia have 
a broad responsibility to work together in addressing global 
and regional security challenges.
    Thank you very much for your time, and I look forward to 
your questions and hearing your own assessments of the summit 
and the way ahead.
    [The prepared statement of Ms. Wallander 
follows:]<greek-l>Celeste Wallander deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. Thank you to both witnesses.
    I will start, if I may, by asking and concentrating on 
Iran.
    Certainly conventional wisdom would suggest that a nuclear 
weapon-armed Iran would not be in Russia's interest. However, 
Russia certainly has been, at best, reluctant in terms of 
supporting meaningful sanctions with respect to Iran regarding 
its nuclear weapons program. Certainly if President Obama's 
policy of engagement is to be successful, it would appear that 
Russian cooperation on all sides of that policy would be 
essential.
    So my question would be: What is it that we can do? What 
are we in fact doing to encourage a more positive response from 
Russia in the context of Iran? And in that regard, what can we 
do to encourage Russia to cease its arms sales, specifically 
the sophisticated antiaircraft systems, to the Iranians?
    And, ancillary to that, with respect to Syria, there have 
been certain reports indicating that the Russians were going to 
sell quite sophisticated military equipment to the Syrians; 
specifically, the advanced MiG-31E fighter jets. If both of you 
could comment on that, I would greatly appreciate it.
    Mr. Gordon. Thank you very much, Mr. Chairman.
    I think it is entirely appropriate to begin with Iran, 
because there is not a probably greater global issue between 
the United States and Russia or an issue of greater importance 
than that one. I would say that was reflected in the 
discussions in Moscow. There probably wasn't a topic in the 
many hours of conversations between the two Presidents, and 
between President Obama and Prime Minister Putin, an issue that 
got more attention than Iran. Because, like you, we believe 
this is a very serious matter.
    I think also that Iran is in the category of those issues 
that many of you have talked about where we see conflicting 
signs from the Russians, areas of cooperation and areas where 
they are less cooperative.
    On the positive side, I also agree with you, Mr. Chairman, 
any objective analysis would suggest that Russia has a very 
strong interest in preventing Iran from acquiring a nuclear 
weapon. And I believe they understand that. They have supported 
the E3+3 process, which is our main diplomatic tool for dealing 
with the Iranian nuclear issue, and they have been working with 
us extensively with that. And they have also supported a number 
of chapter 7 U.N. Security Council resolutions putting pressure 
on Iran.
    So there are some common elements where we are working 
relatively well with the Russians, but at the same time it is 
true, as you say, that they are reluctant to take further steps 
which we feel may be necessary if Iran continues to refuse to 
meet its obligations to the international community on the 
nuclear issue.
    We were pleased at the summit that Russia agreed to a joint 
threat assessment on the Iranian nuclear program, a joint 
threat assessment on ballistic and nuclear issues which will 
include Iran. And, as I mentioned in my testimony already, an 
interagency team is headed to Moscow to talk to them about this 
issue, and we hope that this exercise will help convince them 
what we believe, which is that there are very serious concerns 
about Iran's nuclear program. And by sharing with them our 
analysis, we hope to persuade them that, as we have said many 
times, the President has said, if we don't see a response from 
Iran soon, we will indeed need to turn up the pressure on Iran.
    Finally, on the issue of arms sales to Iran and Syria, 
again, we agree with you very much that these are very serious 
issues. We have certainly conveyed that to the Russians at the 
highest levels, that the sales of sophisticated air defense or 
other technology to Iran and Syria would be a real problem for 
our relationship with Russia and we will continue to make that 
clear.
    Ms. Wallander. I would just agree with Dr. Gordon on his 
answer on the arms sales, and just add that we would have to 
discuss any specific issues relating to potential arms sales, 
weapons sales, in a closed hearing. But we want to reassure 
you, we would like to reassure you that the Defense Department 
is monitoring the issue closely and also have concerns about 
the potentially destabilizing nature of some of the weapons 
systems that have been discussed.
    Mr. Wexler. Thank you very much. Thank you. Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    There are several pieces of legislation that would initiate 
economic sanctions against people who are dealing with Iran. 
How would those sanctions affect Russia?
    Mr. Gordon. How would those sanctions affect Russia?
    Mr. Rohrabacher. There is legislation here that is making 
its way through the body that will actually be punitive against 
people who deal--especially in the oil industry, et cetera. How 
would that affect Russia?
    Mr. Gordon. I think already we have had on the books for 
years, legislation such as the Iran-Libya Sanctions Act, that 
penalizes companies that make significant investments in now, 
no longer Libyan but the Iranian energy sector, and I think 
that legislation already has had a dampening effect on the 
willingness of those firms to run the risk of sanctions before 
making such investments. So I think that that sort of 
legislation has had a deterrent effect. We have also made 
significant progress----
    Mr. Rohrabacher. How does this affect Russia?
    Mr. Gordon. Well, in the same way it affects any other 
countries in the international community that has firms that 
would otherwise be thinking about major investments. I think 
there are Russian firms who take that into account when they 
consider whether they want to do business with Iran or they 
want to do business with the United States.
    Mr. Rohrabacher. So you don't see this as having a 
deleterious effect with trying to establish new relations with 
Russia?
    Mr. Gordon. There are two sides to that policy, and always 
have been, including with our European allies as well. On one 
hand, it does contribute to deterrence against those firms from 
making the investments that we would find highly problematic 
and undermine our efforts in dealing with Iranian nuclear 
issue. At the same time, any secondary sanctions cause tensions 
with our partners, which is why I would stress that we have 
also made good progress, indeed perhaps even more significant 
progress, in working with Europeans, Japanese, and Russians in 
the financial sector in deterring banks and others from 
providing credits that Iranian firms need. And almost all of 
that has been done on a voluntary basis.
    Mr. Rohrabacher. Let's hope we can work together on that. 
And certainly by this hostility that was actually aimed in 
Russia's direction the last 20 years, we couldn't expect them 
just to automatically be concerned about what is--how something 
will affect the United States and others.
    Let me ask you this. The Vice President made some 
statements recently that seemed to indicate that he didn't have 
that same level of respect and concern about Russia that the 
President expressed. Is the White House disavowing those 
remarks?
    Mr. Gordon. I think the entire administration is exactly on 
the same page on this issue. The Vice President talked about 
some challenges, very frankly, that Russia faces. It clearly 
does, as do we and the other countries. But he also, I would 
remind you, was the first to talk about the need for a reset 
with Russia. It was, as Dr. Mullen just said, the Munich 
Security Conference in February, less than 1 month into the 
administration, that the Vice President stepped forward and 
made famous this phrase about resetting relations with Russia.
    Mr. Rohrabacher. So the administration is not renouncing or 
disassociating itself from that statement, the rather strong 
statement the Vice President made. Maybe when he goes overseas 
next time, you can have someone whose only job is to have a gag 
at the right moment for the Vice President.
    On to NATO and expansion of NATO. Don't you believe that 
expansion of NATO and the talks that we have had with countries 
in Russia's backyard has contributed to the unwillingness of 
those countries to reach compromises with Russia on various 
issues?
    Mr. Gordon. No. In fact, I think the entire process of NATO 
enlargement has been enormously positive toward security and 
stability in Europe, and that the reassurance that NATO 
membership provides to those countries can and will and does 
contribute to their willingness to work with Russia rather 
than----
    Mr. Rohrabacher. So you think that giving them some sort of 
military guarantee from the United States actually makes them 
more likely to reach the compromises that are necessary to 
solve problems rather than saying, well, now we have got the 
United States behind us?
    Mr. Gordon. Indeed, I think American reassurance to those 
countries provides a level of security that allows them to rely 
on collective defense, rather than their own national 
rearmament or other efforts that would create further tension 
with Russia.
    Mr. Rohrabacher. No, that doesn't make sense to me. Let me 
just note that we maybe we should invite Russia to join NATO if 
we want to have a positive impact such as that. But if we are 
not, how can we expect Russia to look at that as anything but a 
military alliance that it is being kept out of and that perhaps 
as belligerent motives? As I say, if that was done to us by 
Russia, I think we would feel the same way. I would hope the 
administration looks at the issue of NATO expansion very 
closely and understands the how logically Russians would look 
at that as a hostile act toward them.
    One last question, Mr. Chairman. The missile defense, I 
would hope when you are going to push a reset button that you 
do reset indeed and start looking for new policies that were 
not developed during the last administration, including NATO 
expansion and including missile defense. Perhaps it is time to 
scrap the European missile defense as designed by the last 
administration and go into a partnership with Russia which they 
offered to do in developing a missile defense that would be 
beneficial to all of our countries. Thank you, Mr. Chairman.
    Mr. Gordon. If I might respond to missile defense. First of 
all, I appreciate the opportunity to do so, because it is an 
important question including in the context of Russia. As you 
know, President Obama, the Obama administration has indeed 
decided to review the approach to missile defense in Europe and 
worldwide. His consistent view from the start has been that 
there is a growing ballistic and nuclear threat, and that if 
ballistic missile defenses can contribute to the American and 
Euro allied security then we should pursue them. And what this 
review it doing is assessing that very question, how can we 
best contribute to the security and defense of ourselves and 
our European allies.
    What I want to make clear is that the review is being 
driven by the threat from countries like Iran and by the 
technology designed to deal with that threat, rather than what 
other third parties might think of the threat. In that sense, I 
want to be clear, there is not a link between our review 
between missile defense in Europe and the issue of resetting 
relations with Russia. The outcome of the review on missile 
defense will be determined by the degree of threat that we face 
from Iran and the best way to deal with that threat in terms of 
technology and cost.
    Ms. Wallander. I would add the Senate provided the 
opportunity for moving forward in these discussions. In the 
context of the joint statement on missile defense, the United 
States and Russia affirmed that they will work to actually 
bring to reality a planned joint data exchange center outside 
Moscow on missile launches, therefore beginning that kind of 
cooperation on a cooperative approach to the Department of 
missile threats. So we are looking forward to being able to 
continue those discussions with Russians and hopefully soon be 
actually opening that center outside the Moscow.
    Mr. Wexler. Thank you very much. Mr. Scott.
    Mr. Scott. Thank you. I think my colleague, Mr. 
Rohrabacher, has sort of set the table for some of the lines of 
questioning that I would like to pursue, because I really 
believe that these are the two fundamental issues that are 
really on the table for moving forward with Russia and the 
United States, relationship as we reset. And that is missile 
defense and NATO enlargement. I just think that those are the 
two areas that we have to kind of start from. And I want to say 
that I really hope we can develop improved relations with 
Russia. It is a beautiful country with beautiful people, yet 
there are, as I mentioned in my opening statement, some very 
serious internal problems that we can help Russia with. Many 
people don't know it, but Russia's average age for their men is 
just 58 years, 58 years. Whereas this Nation we are pushing 
about 80 now. Just 58 years is the average life span.
    The alcoholism, some of corruption internally, the food, 
our trade can be improved. I think that there are some 
opportunities here for some us to really reach out and help the 
Russian people. I have a compliment even for Mr. Putin, whom I 
think put forward some solid economic reforms in place, that 
really brought Russia back from the abyss were with a with the 
fall of the Soviet Union. He deserves a lot of credit for that. 
There are a lot of good positive things. But here we are where 
the President and Putin are saying, we can't move forward on 
nuclear non proliferation or offensive nuclear weapons with 
Russia until we dispose of the missile defense system in 
Europe.
    And I think we need to pause and see how we can get a clear 
definition of where we want to proceed with that. And tied to 
them is a threat of NATO's enlargement that I think are very 
key. So I guess my question has to be are they receiving clear 
enough signals from us as to where we stand on missile defense? 
At one point earlier this year, there was a letter that went 
out that was in the media that President Obama said that that 
was on the table, but if we could get Iran, Russia to help us 
with Iran, we wouldn't need the nuclear defense missile system 
and that that could be a point of discussion. I would like to 
get a clarity on that.
    Mr. Gordon. Thank you very much for the opportunity to 
provide that clarity. You are right to say that the Russians 
have insisted or tried to insist all along that we should not 
proceed with offensive nuclear weapons reductions unless and 
until the United States abandons the so-called third site in 
Europe. And we have been consistent in responding to that that 
we are not prepared do so. As I said a few minutes ago, our 
review of missile defense plans in Europe will be driven by the 
degree of threat and our ability to deal with that threat in 
terms of different technologies and deployments, not by the 
Russian willingness to move forward on a start agreement or 
not. Let me also stress that that was our position going into 
the summit, and we were prepared not to have a joint statement 
on missile defense if Russia continued to insist that we 
abandon these plans or this review as a price of a start 
agreement.
    We were consistent in that. And in the end, it was the 
Russian side who agreed that once they realized we were now 
prepared to sacrifice what we think best to do for the defense 
of ourselves and our allies, then they were willing to go 
through with the joint assessment on the missile threat and the 
data exchange center that Dr. Wallender talked about. And we 
will be consistent on that and will continue to be consistent 
on that.
    The letter from President Obama that you mentioned is also 
consistent with everything we have said, which is that as the 
President has made very clear, has said and this is eminently 
logical, if the threat from Iran were to be eliminated, the 
driving force behind any need for missile defense would also be 
eliminated. And you asked for clarity and I am trying to be 
very clear. It doesn't mean if Russia helps us try to deal with 
that threat where the need to be eliminated, but it is the 
simple fact of observation analytically that if there is not a 
threat, then the driving force for protection against that 
threat goes away.
    Mr. Scott. If Russia comes back and says to the President, 
yes, we will help you, we will help to get Iran to stop this 
procurement of nuclear weapons, if you will remove the missile 
defense shield, what will the United States answer be?
    Mr. Gordon. Well, again, the deployment of a missile 
defense system in Europe or anywhere else would be designed to 
protect us from a threat that exists. Therefore, the simple 
willingness help try to deal with that threat would probably 
not be enough to lead to a conclusion that we don't need 
missile defenses. As I have said, the President has said there 
is a growing ballistic missile and nuclear threat. And if we 
can find ways to deal with it, we should and we will. So the 
driving factor is the existence of a threat and not Russia's 
willingness to help us with that threat.
    Mr. Scott. If we did that, to move forward with a joint 
partnership and missile defense for the entire region, would 
that help move us off center?
    Mr. Gordon. We have indeed approached the Russians on a 
number occasions and the run up to the summit and at the summit 
itself. And we are prepared to continue to do so to discuss 
ways in which we might work together on missile defenses. 
Russia should understand that any missile defense plans we 
might have for Europe are not directed at Russia, they are 
directed at Iran or other threats from the greater Middle East. 
Therefore--and Russia has an interest like we do in being able 
to protect itself against such threats. And the President has 
said if we can find ways to work together with the Russians on 
missile defense, including on our research, development and 
architecture, then we will pursue those discussions. We have 
that on the table quite clearly, and quite specifically, and it 
remains on the table. We are prepared to move forward in that 
direction.
    Mr. Scott. Thank for your generosity, Mr. Chairman. I know 
I went over a little time. I will follow up with my NATO 
enlargement question if we have another round.
    Mr. Wexler. Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. What I would like to 
know, it seems like after the fall of the Iron Curtain and 
things there was kind of a honeymoon period where the United 
States and Russia got along. I guess what is the cause that we 
are resetting from, Iran, Iraq--I'm sorry, Iraq, Afghanistan 
NATO, what do we need to reset?
    The other thing is I was a little confused about the NATO 
enlargement. I have been on the NATO Parliament for the last 6 
or 7 years. And the countries that have joined NATO, in the 
former Soviet block really are very, very nervous and very, 
very scared of them. Now, I agree it has given stability to 
those countries, but when you talk about NATO enlargement of 
Ukraine and Georgia, I think the Europeans are very worried 
about that to the point of putting it off because they don't 
want their oil cut off and their this-and-that cut off. And I 
think the Russians are very nervous about that from their 
perspective. So if you could just comment on those things, 
where we come from and then again a little bit about the NATO 
enlargement. Thank you.
    Mr. Gordon. Thank you. I appreciate the opportunity. I will 
start, and I am sure Celeste will want to respond as well. 
Those are both good questions. The first one you are right that 
in the initial aftermath of the end of the Cold War, there 
seemed to be both the prospect for and progress toward a much 
better and healthier United States-Russian relationship.
    I think what happened over the course of that decade is 
Russians gradually started to resent the outcome of that, which 
included, as you say, NATO enlargement, the United States 
becoming frankly the sole superpower rather than a pair of 
superpowers. And as Russia recovered from the demise of the 
Soviet Union and its economy started to recover and the rise in 
oil prices started to fuel a sense of prosperity and power, 
that resentment came to the fore. And under President Putin, 
initially Russia started to become more assertive and resistant 
to what they considered to be undue American power and undue 
American hegemony. And I think that is their story in part of 
the past few years is Russia's effort to resist what they 
consider to be excessive American power.
    And of course, we in the United States have tried to 
explain that our interests are in promoting global stability 
and not dominating in any way, but they see it differently and 
that has led to tensions.
    Mr. Boozman. And they do appear to be bullies in many 
instances. And it seems like they feed on instability in the 
region. Would that be a fair statement? They like their 
neighbors to be kind of----
    Mr. Gordon. It is certainly true that for many Russians at 
least, I want to come back to the remarks of several members of 
the committee who talked about the old guard and the new guard, 
I forget who put it in those terms, but there are different 
views in Russia. But yes, I would agree that for all too many 
Russians continue to see the world and Europe in zero sum 
terms. If it is a gain for the United States, it is a loss for 
Russia. That has prevented cooperation and frankly it is 
frustrating because we don't see it in those terms. We think 
there are things that can be done that should benefit both 
countries. And that to answer your first question about what is 
the reset for, that is one of the things we are trying to 
reset, is this notion--and it is frankly a Cold War notion and 
a 19th century notion they or we have to win on different 
issues.
    Preventing Iran from developing nuclear weapon I would 
argue is not an American issue that we hope Russia will let us 
pursue. It is a common interest, and again, that was exactly 
the theme of the summit. There are some common interests like 
promoting stability in Afghanistan or combating piracy or 
fighting al Qaeda or reducing nuclear proliferation. We both 
benefit and that is precisely what we are trying to achieve.
    Very briefly on your NATO enlargement question, because it 
fits into the same discussion. It is true that some of the 
countries of the foreign more Soviet Union remain, as I think 
you put it, nervous. We try to provide reassurance and make 
clear to them that the reset with Russia doesn't, in any way, 
come at their expense.
    On the issue of potential membership for Ukraine and 
Georgia, we are trying to feel a simple principle, which we 
have made clear from the start, and that frankly the Russians 
have accepted in different fora that European democracies 
should be able to choose their own security alliances. And that 
is what we said applies to Ukraine and Georgia. And there is a 
lot of work for them to do. And we want to work with them so 
that they feel more secure and that they are better able to 
meet the criteria for NATO membership. But it is a rock solid 
principle of ours that democracies should get to decide for 
themselves what alliances they want to join.
    Mr. Wexler. Thank you. Mr. Miller--did I cut you off?
    Ms. Wallander. Let me just add two points on NATO. There is 
a real disconnect between when you talk with NATO allies about 
what NATO military missions are, what their training for, what 
they are planning for, and what they are working on. And that 
is focused on Afghanistan and our global missions where NATO 
allies have agreed to contribute to common goals security 
problems. And Moscow hasn't gotten there. Moscow really still 
sees NATO as designed, deployed and ready for Cold War war. 
That is a reason to continue the engagement though with Russia. 
And we have agreed to restart the meetings of the NATO Russia 
Council. At the meetings in Corfu, we agreed to restart the 
meetings in the NATO Russia Council, and to restart the 
military to military relations between the Russia and NATO 
members precisely to continue this difficult process of 
overcoming this Cold War thinking, which is understandable, but 
incorrect about what NATO's missions, capabilities and 
intentions are. So the work is still there, the process 
continues and it is going to take some time. But again, the 
summit provided the opportunity to get back to work in a 
pragmatic way on that.
    Mr. Boozman. Thank you.
    Mr. Wexler. Thank you, and I apologize. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I do not think I have 
ever attended a hearing at which political party was a less 
accurate predictor of what member's opinions or points of view 
would turn out to be.
    I have a less benign view of Russia than some on this 
subcommittee, including my friend Mr. Rohrabacher. I certainly 
think we should look for those areas of mutual interest where 
we can work together, where our interests are parallel and it 
makes sense for us to join forces. But Russia and the United 
States are unlikely BFFs. They do not really have either the 
Russian people or certainly Russian leadership have a 
democratic tradition or impulse. They are deeply nationalistic, 
felt a great pride in being one of the world's two great 
superpowers, it had nothing to do with ideology, but had 
everything to do with nationalism and felt a great humiliation 
at what happened in the 1990s.
    One of the reason for Putin's popularity with Russians is 
not just how better the economy is doing than it was under 
Yeltsin, but that he is reasserting himself, that Russia is 
rising from its knees.
    And I agreed with what you said earlier, there are 
certainly areas where we may need to hit a reset button, but 
there are areas where we need to hit the save button with 
respect to areas of our policy.
    I was on the same delegation to Russia to Moscow that 
several of the other members were. In one discussion, Russian 
parliamentarians, they talked about South Ossetia and Crimea in 
successive sentences. It worried me some. What happened in 
Georgia last year has now become disputed, it is who started 
it, who provoked who, what really happened, whose fault it was. 
It has now all kind of fused over, and 1 year ago <greek-l>it 
deg.is now already history. But if the Ukraine is found in the 
heap at the bottom of the staircase the same way Georgia was, 
what can we do to make it clear that we are not going to 
believe that Ukraine tripped, we are going to believe that 
Ukraine was pushed. What can we do, are we doing enough, what 
are we doing?
    Mr. Gordon. Thank you for those thoughtful comments. On the 
first part, let me just say we agree with the analysis. When 
you talk about Russia being nationalistic and resentful and 
sometimes unhelpful. I don't think anybody here would challenge 
that. And the President certainly didn't challenge that in his 
thinking about why we wanted to reset. The question is do we 
say therefore, let's not talk to them, let's not try to work 
with them where we have common interests, let's cut them off 
and try to contain them or do we try to find areas where we do 
have common interest, and I think I have identified a few and 
we identified some at the summit. That could show Russia that 
the world actually is not only a zero sum place, that we are 
not out to get them, that we can work together, and restore a 
little trust. And maybe over time the new guard will prevail 
over the old guard, and a new generation will come along, and 
we can have the type of relationship that we would like to 
have. So I think in terms of analysis of the situation, we 
don't have a disagreement----
    Mr. Miller. Ukraine. What do we do about Ukraine and 
Crimea?
    Mr. Gordon. We take very seriously Ukraine's sovereignty 
and territorial integrity, and I think Russia knows that. We 
also take very seriously Georgia's territory and integrity. And 
the point you made about South Ossetia and Abkhazia is 
absolutely right. I want to make clear we are not fuzzing that 
over. If anyone has the impression that we have moved on and 
said, well, it was 1 year ago, so let's not worry about it. For 
the reasons that you suggest, that would be a huge mistake 
because it would imply that if it happens somewhere else we 
would do the same thing. We are far from fuzzing it over; we 
have been absolutely insistent that we will not and do not 
recognize them.
    We have successfully lead the international community in 
opposing recognition, leaving Russia extraordinarily isolated 
on this point. They went on a limb and recognized, and as far 
as I understand other than the Nicaraguan legislature has found 
nobody else to support them.
    Mr. Miller. Hamas?
    Mr. Gordon. No other countries to support them including 
Belarus. That sends a pretty strong message that Russia can't 
simply do what it wants and get away with it and we won't let 
this lie. We will continue to bring it up at all of the 
meetings of the international organizations and bilaterally 
with the Russians with our friends so that this stays on the 
international agenda and we can overcome it. And therefore in 
the same way Russia needs to understand that any such actions 
in another country, sovereign country with territory whose 
territorial integrity should be defended would also not be 
acceptable to us.
    And of course, if I might just add in Ukraine's case, as in 
the case of many other countries, the most important factor is 
what happens within that country itself. The best thing Ukraine 
can do is to pursue the political and economic reforms it needs 
so that Ukrainians and even ethnic Russians within Ukraine want 
to be part of a sovereign independent Ukraine, strong and 
prosperous and stable.
    Mr. Wexler. I don't want to cut you off again. Thank you. 
Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman. You know it is 
important for us in the United States to focus on human rights 
and we want to export those values around the world. I don't 
know whether it is more troubling to think that the Russian 
Government has the policy of supporting kidnapping and 
assassinations of journalists and human rights activists, or 
whether they just abdicate their role of maintaining order on 
the streets. Which do you think it is? Are they participants or 
they just stand back and watch? Which do you think is worse, 
from an American perspective?
    Mr. Gordon. Well, what is certainly true is that there has 
been a troubling degree of violations of human rights and 
frankly murders committed in wide open, and lack of follow up 
by the authorities in dealing with them. I am not sure we are 
in a position here right now to say exactly who was behind some 
of the horrific developments that we have seen in Russia but we 
can quite clearly say that we are not satisfied to the degree 
to which those human rights have been protected and the Russian 
State has done all it can to defend human rights and prosecute 
those guilty for such violations, including the most recent 
cases.
    The kidnapping and murder of Natalia Estemirova which took 
place just last week; it was obviously a terrible tragedy. The 
Russian President Medvedev immediately wrapped it in this case 
and said that he would follow up. And we will be sure to follow 
up with the Russian Government to make sure that this atrocious 
violation of human rights in Russia not go unpunished or 
uninvestigated. It is very important to us and we will make 
that clear to the Russian Government.
    Mr. Inglis. What do you think, sir, in your view of the 
Russian people, are they concerned that these things happen and 
then nothing, no follow up, no prosecutions, or are they 
accepting of it? Do you have a thought about what their 
reaction is to the lack of prosecution of these murderers and 
kidnappers?
    Mr. Gordon. I would just say I do know plenty of Russians 
who are troubled by the lack of prosecution. There are an awful 
lot of Russians who do not want to live in a place where 
people, journalists can be murdered on the street or kidnapped 
without any consequences. So I don't want to make a judgment 
about the overall Russian society or population, but I can tell 
you I know a number of Russians who are deeply troubled by 
that. I can tell you that we met with a number of them in 
Moscow. The President raised this issue of the need for a rule 
of law, and an independent judiciary, and the free press, and 
respect for human rights. He raised it in his private meetings 
with the Russian leadership and he spoke about it publicly when 
he met with opposition leaders, when he met with civil society 
groups, including human rights advocates, and when he spoke to 
the next generation of Russians of the new economic school. So 
it is absolutely something that we are very much focused on and 
we raise at every possible level with the Russian Government.
    And to answer your question yes, I do think a lot of 
Russians are troubled by this and want to see an end to this 
sort of injustice in Russia.
    Mr. Inglis. Is there anything more we can do to aid the 
folks that do want to end these sort of practices? Is there 
something else as a Congress we can be doing or as an 
administration?
    Mr. Gordon. Well, it is an important point and we are 
always open to. I think we should always have the attitude that 
there is more we can do. Obviously we are not entirely 
succeeding so we need to constantly be asking ourselves what 
else we can do. I think we are trying to do a lot. As I say 
both in terms of our assistance to those Russians who are 
trying to remedy these issues, in terms of our engagement with 
the Russian Government. But I don't want to be in any way 
complacent. There is always more we can do when the results are 
not showing what we need them to show.
    Mr. Inglis. Thank you. Thank you, Mr. Chairman.
    Mr. Wexler. Thank you. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I want to explore the area that I mentioned in my opening 
comments about the former Soviet Union's spirit of influence 
with regards to the various today independent republics. And I 
know one size doesn't fit all obviously in this situation with 
the Ukraine and Georgia, there are attempting to join NATO, and 
of course with Belarus and with Kurdistan and some of the other 
former Soviet republics, it is a different circumstance.
    It is your views that Russia is trying to, in fact, 
reestablish its former sphere with those countries today? What 
do you think their true agenda and attitude is toward the 
countries as they go about their own independent path?
    Mr. Gordon. Again, I am hesitant to generalize about a 
Russian view, but let me say that for many Russians yes, they 
see what they call the Near Abroad as an area of special and 
privileged interest. And I think I can say this with confidence 
because they say that this is their view, and that they, for 
historical, and cultural, and ethnic reasons, deserve special 
influence in some of these neighbors. And that is obviously an 
approach that we disagree with, not because we think we should 
have some privilege spheres of influence in those countries. We 
think it is up to those countries to decide how they want to 
orient themselves, and that if they want to orient themselves 
toward the European Union, NATO and us, that shouldn't be seen 
as a threat to Russia.
    Indeed, I think Europe and the world will be a better place 
when Russia sees it the same way. That when they come to the 
conclusion that having stable prosperous democracies on their 
border is their greatest way to achieve security. They don't 
currently see it that way, at least many Russians don't 
currently see it that way. And when I said in Moscow we, after 
a positive summit, had disagreements with the Russians and were 
frank about them, this was one of them. And President Obama was 
clear with President Medvedev that we believe it is up to those 
countries to decide what sort of foreign policies they want to 
pursue and that there shouldn't be privileged spheres of 
influence. I do think Russia continues to take a different view 
of that issue.
    Mr. Costa. Would you care to comment quickly?
    Ms. Wallander. Sure. In the NATO frame, it is an 
opportunity to clarify that the approach to NATO cooperation 
and defense, and bilateral defense cooperation with countries 
like Ukraine and Georgia is to support their defense 
transformation, their modernization, their reform, their 
capacity to contribute to global missions. Ukraine has 
contributed in the Balkans. Georgia preparing to contribute 
forces to Afghanistan. And that these are capabilities that 
allow countries in Russia's neighborhood to contribute to 
common security problem. These are the not intended, nor 
shaped, nor aimed at contributing to defense capabilities 
against Russia.
    Mr. Costa. But Russia doesn't see it that way.
    Ms. Wallander. But Russia doesn't see it that way.
    Mr. Costa. Quickly, before my time expires, you noted in 
your comments about after 15 years of effort, there was 
withdrawal from attempting to become a member of the WTO. Mr. 
Rohrabacher mentioned in his opening comments about inviting 
them to join NATO.
    In both cases what would be an incentive, a momentum for 
Russia to either be reengaged on WTO or to look seriously at 
NATO?
    Mr. Gordon. We would like to see Russia join the WTO. That 
is a goal of the administration because Russia to join the WTO 
would have taken market reforms and establish guarantees and 
things like intellectual property that would be good for us. 
Obviously it has to meet the criteria before it can join the 
WTO. And the reason it hasn't in these 15 or 16 years, is it 
hasn't yet met those criteria. But we want to work with them 
toward that end. And that is why we were somewhat puzzled 
frankly and disappointed even that out of the blue, they came 
up with this idea of joining as a customs union with some of 
their neighbors which has no precedent and as far as I 
understand it which is imperfectly doesn't fit within the rules 
of the WTO.
    Mr. Costa. How about NATO, quickly?
    Mr. Gordon. It shouldn't be excluded. We have said that 
NATO's doors should be open to democracies in Europe. And if 
Russia meets the criteria, and can contribute to common 
security, and there is a consensus in the alliance, it 
shouldn't be excluded.
    Mr. Costa. A defense specialist opine.
    Ms. Wallander. We will do whatever the State Department 
tells us to do.
    Mr. Gordon. That is the first time that has been said.
    Mr. Costa. My time has expired. Thank you very much, Mr. 
Chairman.
    Mr. Wexler. That bears repeating. Dr. Gordon said, that was 
the first time.
    Mr. Delahunt.
    Mr. Delahunt. Yes, thank you.
    This is to both of you really, in terms of missile defense, 
this is a follow up to the questions that were posed by Mr. 
Scott. And I appreciate what you said in terms of collaborative 
and working with the Russians on missile defense.
    Would that also include discussions relative to a missile 
defense system that was located, positioned within Russian 
geographical borders or has that been taken off the table?
    Ms. Wallander. Nothing has been taken off the table. And 
some of the proposals that the Russians have floated which 
could be the subject of intensive discussions now that we have 
agreed to explore those did involve facilities on Russian 
territory. Although not exactly in that same vajadak would be 
the first step along those lines, but maybe the only step. This 
is meant to be a true opportunity to share ideas as options. 
And I think that that is definitely on the table.
    Mr. Delahunt. Thank you. I appreciate that.
    In terms of the architecture itself of the system, there is 
a possibility that does exist that the system itself, the 
hardware could be placed within Russian geographical borders, a 
possibility.
    Ms. Wallander. Well, the discussions have not gotten that 
far down the road to actually specifically talk about hardware. 
And it has to be, as Dr. Gordon pointed out, driven by the 
assessment of threat and the ballistic missile defense review 
is underway. So we would have to await that assessment.
    Mr. Delahunt. It hasn't been eliminated.
    You have heard a lot of concern on this side of the dais 
expressed about Russian sales, the potential sales of weapons 
to Syria, to Iran. We have heard them regarding the sale of 
military hardware, to Venezuela in this particular hemisphere. 
So there has been some concern. It has been expressed what I 
find interesting is a recent story in The Washington Post, last 
week that Georgia's--I am reading the headline--Georgia's 
Saakishvili is seeking U.S. weapons to deter Russia.
    I took note of a quote that is attributed to Mr. 
Saakishvili that the only thing to stop him, meaning Mr. Putin, 
is a clear unequivocal message from the West that there are 
going to be very grave consequences. He believes that Mr. Putin 
is in a pretty desperate situation, his domestic political 
standing is in question, although when we were in Russia his 
poll numbers were pretty good. I think some us on the panel 
would be happy with them if we took a poll on our own 
districts. I am really concerned about Mr. Saakishvili. I 
understand he wants to be a better democrat, he has made his 
speech recently that he's going to give it his best shot to be 
less authoritarian and a better democrat, small ``d'' democrat. 
But his language seems to create a real us versus them in 
implicating the United States into a problem that I would 
submit to a large extent he is responsible for vis-a-vis 
Russia.
    And now we see a new suggestion that--and again this is his 
statement of Georgia for reintegration issues, this is his 
quote, not mine. ``It will be the same mission''--in other 
words make United States part of the EU mission--``it will be 
the same mission, but representatives of other countries will 
also take part, they will increase the authority of the mission 
and granted additional safety because attacking American 
monitors or attempting to attack them is politically 
disadvantageous.''
    I am really concerned about being used, and I would be 
adamantly opposed to the sale of weapons to Georgia. You know, 
we can be critical of the Russians and sometimes that is 
justified, but I did note that there was a statement from Mr. 
Medvedev, the President. Now, I don't know if this is taken out 
of context, but it is reported in the New York Times, which is 
generally responsible. And it is reported that the Russian 
President stated at NTV the Russians need--and again, these are 
language attributable to the Russian President--normal working, 
friendly relations with the United States, mutually beneficial 
relations. He went on to say, the deterioration of our ties 
with other countries, our U.S. relations with some other 
countries, including Ukraine and Georgia, should not affect 
that relationship, the United States and Georgia. I kind of 
welcome the tone. But I certainly do not welcome the idea of 
selling arms to Georgia, nor making the United States part and 
parcel of the EU mission. We have got plenty on our plate. And 
if we are going to reset this relationship, why add fuel to a 
volatile situation? Care to make a comment?
    Ms. Wallander. Thank you, Congressman, President 
Saakishvili gave that interview just before the Vice President, 
as the Vice President was on his way for his visit to Tbilisi, 
so it gave the Vice President an opportunity to address those 
two issues that the President of Georgia had raised. And he was 
very clear in the answer on U.S. policy, which is that the 
United States supports a responsible and robust defense 
cooperation program with Georgia that is focused on improving 
Georgia's education, training, command capabilities, building 
an NCO core and along those loans. That is what Georgia needs 
right now. But Georgia is not ready for the kinds of weapons 
acquisitions that the President floated. And that in the 
future, is not off the table, but certainly the United States 
is not in a position for believing Georgia is ready for that 
kind of defense acquisition.
    And similarly on the EU monitoring mission, the Vice 
President was able to point out that the EU, that is an EU 
mission, and the EU would need to decide whether it wanted to 
invite American participation. And at that point, the United 
States would have to have a discussion about whether the United 
States would believe it was the appropriate choice to send 
American participation or agree to American participation in 
that mission. So this is all very premature.
    Mr. Delahunt. If I may, Mr. Chairman. I presume that the 
invitation from the EU has not arrived in the mail yet.
    Ms. Wallander. As far as I know, it has not arrived.
    Mr. Delahunt. Okay.
    Mr. Wexler. Thank you very much. Mr. McMahon.
    Mr. McMahon. Thank you very much, Mr. Chairman.
    On the issue of energy immediately following the signing of 
the Nabucco pipeline deal with the EU, German Chancellor Angela 
Merkel met with President Medvedev of Russia to discuss energy 
security. And it seems our European partners dependence on 
Russian gas leaves them both, them and NATO in a tough bind. 
How can we use our arms reduction talks with Russia to help our 
transatlantic partners ease their concerns over Russian gas and 
the sectors increasing instability? Can we somehow triangulate 
or use the two issues to the benefit of the other?
    Mr. Gordon. I am not sure that we can. They are both 
important issues, we want to pursue the weapons reduction and 
the energy security in Europe. We have not linked the two 
together by somehow suggesting to the Russians that we would be 
unwilling to pursue what we think is a common interest in 
reducing nuclear weapons unless we see changes in the energy 
area. Rather, we have focused to make progress on the energy 
area, promoting diversity of energy supplies within Europe, 
including the example you gave of the Nabucco pipeline and 
there are some others. We made some progress, I think the 
cutoff of gas to Ukraine last winter was a wake-up call to a 
lot of Europeans about what can happen to them. And it sent a 
message that to the degree that you are energy dependent and 
therefore economically dependent, you risk being politically 
independent as well and nobody wants that. So it is our policy 
and the President and the Secretary, Ambassador Morningstar to 
focus on this issue of Eurasian energy issues to promote 
supply. And interconnectors, and proper pricing, and market 
mechanisms, and liquid natural gas so that Europeans are less 
dependent. I think we made some progress on that over the past 
year. But what we haven't done, and I am not sure it would be 
advisable is try to link it to what we think is a common 
interest in reducing nuclear weapons.
    Mr. McMahon. On the issue of Nabucco, it is just a 
pipeline. Is there a variable source to provide the energy to 
provide the gas into the pipeline?
    Mr. Gordon. That is precisely the question. The pipeline 
will be built if and when there is a reliable source to supply 
it. On these energy issues there is always a sort of chicken 
and eggs prospect because you could also argue that there will 
be reliable sources when there is a pipeline because companies 
don't want to invest in the pipeline until they are sure they 
have supplies. But companies don't want to invest in developing 
the supplies until there is a reliable pipeline. So that is the 
point of coordination and that is where governments including 
ours can help, not by investing our own money in these things, 
but by coordinating so that these things come on stream at the 
same time and reinforce each other and that is what we are 
trying to do.
    Mr. McMahon. I thank you.
    On the issue of global security, the Russian Navy is 
reported to be moving ahead with plans to upgrade its Soviet-
era naval bases at the Syrian port of Tartus in the Eastern 
Mediterranean. Also seeking to establish naval bases in Libya 
at the western end of the Mediterranean, and in Yemen on the 
Red Sea.
    As I mentioned in the opening statement I am a huge 
proponent of engagement with Russia. But do you feel that 
Russia's military expansionism will be curbed through increased 
engagement or is there another--are we being active enough in 
that regard? Why do you think Russia is ramping up its program 
its Mediterranean, its military program in the Mediterranean?
    Ms. Wallander. You are right. The Russian officials have 
announced at least their intention to upgrade the 1980s-era 
naval base at Tartus and Syria and talked also about Libya. 
Were it to be affected, it would probably be in the context of 
moving naval assets from the Black Sea fleet into the 
Mediterranean, not in that increase in assets at least in the 
time frame given the time it takes to build naval forces of 
that capacity. And so then it would depend on for what purposes 
those forces were in the Mediterranean. Some Russian analysts 
have suggested, and this might be actually consistent with U.S. 
interest, but that they would be aimed at supporting Operation 
Active Endeavor, which is a counterterrorism operation in the 
Mediterranean that United States and NATO partners participate 
in.
    Or it might be aimed at Russian counter piracy needs, 
because Russian ships have also suffered problems of piracy the 
gulf as have other nations. So it would be something you would 
need to be watching in terms of what the missions would be and 
what they would be focused on rather than the assets in and of 
themselves.
    Mr. McMahon. Do you believe this is an area of great 
concern.
    Ms. Wallander. It is an area to watch. There is a time 
frame that is extended enough that we can assess what those 
missions are. It is not--I wouldn't want to react--I think we 
wouldn't want to react presuming a zero sum frame. That would 
become apparent in how those forces were deployed and what they 
trained for and whether they engaged in cooperative counter 
piracy operations as has been discussed in the NATO-Russia 
Council.
    Mr. McMahon. I see my time is expired. Thank you, Mr. 
Chairman.
    Mr. Wexler. Thank you. Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman.
    I just have a very few questions, but I am wondering about 
your opinion on the following issue: Do you think that the 
United States missed an opportunity after the fall of the 
Soviet Union to restart our relationship with Russia?
    Mr. Gordon. I don't know if it is worth--as I pointed out 
in the previous answer, we did in the early aftermath of the 
Cold War make significant progress toward a new relationship 
with Russia, and the question that you raised, the big 
interesting historical question, is there anything we could 
have done differently to avoid the later down turning relations 
that I described? The historians will continue to ponder that. 
I am not sure that there is.
    We were open to new and different relationship with Russia. 
It may be that structurally empires have a hard time dealing 
with a loss of Empire, and no matter what we did we would have 
found ourselves in a world where we had resentful Russians 
still getting used to the idea that we weren't equals.
    I think when the Cold War ended, many Russians wanted to 
believe that both sides would stand down and NATO would 
disappear just as the Warsaw Pact disappeared. Well, we had a 
different view because all of the members in NATO still liked 
it. They thought it was useful and they thought it had other 
purposes, including global purposes and other countries wanted 
to join it.
    So in a way, what could we have done other than force 
people to abandon what they thought it was the most successful 
alliance in history. So we can think about whether there is 
anything else we could have done. It may be that structurally 
the loss of Empire was always going to be something that led to 
a significant period of resentment on the side of the Russians.
    Ms. Berkley. Yes, I find myself in the same position that 
Mr. Miller is in, in that I seem to have a less benign view of 
Russia than many of my colleagues here today. But I am also 
hopeful that the reset button will not only be pushed, but 
there will actually be a reset in the relationship, because I 
fully appreciate the need to relate to the Russians in a 
different way than we have been doing.
    There are three areas that I have concerns, one of them, of 
course, is about Iran and a number of my colleagues have 
already mentioned it. But it seems to me that a non-nuclear 
Iran is of mutual benefit to both the United States and the 
Russians, but it seems more important to us or we have more of 
a passion for it and I am wondering why that is.
    The second thing is missile defense, is there anything that 
we can offer the Russians that would back them off from their 
position of no way, no how, or is that just a continuing 
problem between the two countries that can never be solved.
    The third, of course, is renewed flexing of muscles, I 
didn't want to overstate our meetings, what was communicated 
with us in our meetings with the Estonians and the Belarusians 
and the Lithuanians and the other Baltic nations. There wasn't 
a huge fear factor, but I walked away feeling that they know 
the Russians very well and they very much appreciated the fact 
that we were there. And I also realize that this was fairly 
soon in the aftermath of the invasion of Georgia. So they were 
very, very concerned, as you could understand.
    Can you respond to those three issues?
    Mr. Gordon. Absolutely. Thank you very much for that 
thoughtful set of questions. First, a word on the overall reset 
and then your three points that follow within it. Because I 
fully appreciate your concerns and those of others about 
Russia's willingness to go along with the reset. No one has any 
illusions about this. The President has said we should try to 
have a different relationship while backing up principals and 
our friends. We do not know if it will work, we are trying to 
find out.
    One of things that is important I think about the reset or 
the effort to reset is we need to give Russia stake in the 
relationship. If we simply say, we have differences and 
therefore we are not going to talk to you, we are not going to 
work with you, we are not going to cooperate on the things that 
we care about, but by the way will you help us on Afghanistan. 
I think the answer is likely to be no. And so what we are 
trying to find out is whether we can find some areas that will 
give them a stake in the relationship as well so they might not 
see it in such zero sum terms, which leads me to some of the 
issues that you raised including Iran.
    You asked why they have not been entirely helpful. I think 
sometimes Russians are torn between their own interest in 
preventing Iran from getting a nuclear weapon and their own 
desire to prevent us from a big diplomatic success in the 
Middle East. And if we can reset the relationship, maybe they 
wouldn't see it that way, and would be more inclined to focus 
on their national interests, in preventing Iran from getting a 
nuclear weapon which happens to be exactly the same as our 
national interest without seeing it as somehow giving a win to 
American power and hegemony around the world, we hope to 
persuade them of that.
    You asked missile defense whether there is anything we can 
do to reassure them or persuade them it is not a threat to 
them. We are trying, I think our efforts at transparency so 
that they understand that this really isn't directed at Russia 
and it really isn't the idea of a handful of interceptors in 
Europe that is all we are talking about to deal with the 
threats from Iran just cannot threaten the Russian nuclear 
arsenal, even at the new limits that were talked about in the 
start follow on. And cooperation as Dr. Wallender talked about, 
cooperation that could include material cooperation with 
Russia. We are trying to persuade them that this could actually 
be in our common interest rather than in any way a threat to 
them. And I wouldn't be too pessimistic on that score. I think 
progress is slow and difficult, but it is not impossible to 
imagine that we could get there.
    And then finally on the issue of reassurances to our 
friends, we have really I think done all we can, and will 
continue to make clear to them that a reset of Russia doesn't 
come at their expense. Our commitment to NATO in Article 5 is 
as rock solid as it ever was, and we will continue to review 
how best to manifest that commitment. We have been in close 
touch with them. We were--I personally was with my colleagues 
across the interagency engaging with them, within hours of the 
end of summit, just as we had before the summit so that they 
know absolutely what we are up to and what we accomplished and 
what we didn't.
    And it is very important to us to make sure that they are 
entirely comfortable with how we are dealing with Russia and I 
think I can say for the most part, they can speak for 
themselves, but they are.
    Mr. Wexler. Thank you very much. The witnesses have been 
very gracious with their time. If you would give us just a bit 
more, not too much more. Mr. Rohrabacher.
    Mr. Rohrabacher. Just a few thoughts, just a gleaning from 
what has been said here today, it just seems that the United 
States is still overly concerned about an alliance with 
Lilliputians rather than a partnership with a giant. And I 
would suggest that if we are to have a peaceful world that we 
better get real. There are powers in this world that can make a 
difference. There are other powers, there are other countries 
in this world which will only be secure because they are 
latching themselves on to us or bigger powers. Russia is one of 
those big powers.
    If we are to have a peaceful world, we need to have a 
partnership, a relationship with Russia, and India and Japan. 
And all of our European friends who have lost their courage to 
stand for anything, can go in the direction that they want to 
go to, because our security can't rely on people who send 
troops to Afghanistan but who insist they never go near a 
battle. They should be sending social workers instead of 
troopers.
    The Russians are some of the most courageous people on this 
planet, I fought the Russians. Russians, we fought the Russians 
for decades, they are courageous people. We need them on our 
side. They will not fade away when it gets tough. We can have 
that kind of ally or we can have the allies that we have had in 
Europe who want to take time out for tea when there is an 
emergency. That was not a shot at the British, by the way, just 
to say that. They are people we could stand by.
    I heard Russia as related as a bully. Do you believe that 
it is a bullying to insist that your customers pay market rate 
for your gas--this is what we--was Russia bullying their 
neighbors by insisting they pay market rate for their gas, 
natural gas?
    The answer is no, all right. I will save you from having to 
upset the Ukrainians. And let's just also note this, that 
missile defense was initiated as a major American goal by my 
President that I worked on the speech with him that initiated 
that goal. I have been in the room a number of times when 
Ronald Reagan expressed that missile defense would be something 
that we should ask the Russians to participate in, if we could 
ever get them to give up their belligerency toward the West.
    And obviously, the missile defense that is now being put on 
their borders, but they are not part of is not seen as a 
partnership with them. I would, again, the one last thing and 
that is the double standard of why would Russia--we have a lot 
of work to do to make up for the last 20 years, my colleagues 
would disagree with me on this, have to know this, we have, in 
the last 20 years, permitted China, which is the world's worst 
human rights abuser, to get away with murder, literally get 
away with murder, arresting Falun Gong, religious dissenters, 
putting them in prison, shooting them and selling their body 
parts, as ghoulish as it gets, but we have our businessmen 
swarming over to China to make a buck. While at the same time, 
Russia has opened up all of its churches, respects these 
rights, the religious rights of its people, that does have 
opposition parties, there are opposition newspapers there on 
sale, they aren't perfect obviously, but yet we have treated 
Russia like an economic pariah while we have set capital and 
technology to build up the world's worst human rights abuser in 
China.
    Does this administration plan to end that double standard 
with Russia and China and perhaps--I mean, we have in the last 
8 years during the last administration we couldn't get rid of 
Jackson-Vanik much less make Russia part of the WTO or give 
them permanent, normal, most favored nation status. So do we 
plan to change those basic economic double standards that we 
have had with Russia as part of the reset button? That is the 
question. Is that one you shouldn't answer as well?
    Mr. Gordon. I wasn't sure if it was a rhetorical question.
    Mr. Rohrabacher. No, it is a real question. We have had a 
total double standard with China while Russia remains totally 
isolated and fenced off from the Western markets. What are we 
going to do? Or are we planning to do that as part of the reset 
button?
    Mr. Gordon. I will leave it to other colleagues in the 
administration to address China. I would say on Russia we have 
been pretty consistent on the economic front. We do want to 
expand bilateral economic relations with Russia which are far 
too underdeveloped given the respective size of the economies. 
And we want to see, as I said earlier, Russia join the WTO. And 
as soon as it meets the standards, we will do that.
    That said, we continue to have concerns about some of the 
freedoms within Russia that you addressed, freedom of the press 
and independent judiciary, and we are not going to ignore those 
issues even as we try to promote the bilateral economic 
relationships.
    Mr. Rohrabacher. If you will indulge me just one moment, 
just one comment. We just had China shoot down hundreds of 
Uighurs, religious people who are religious minority in China, 
shot them down in the streets, arrested thousands of them. One 
journalist--now, we should never have turned a blind's eye, 
whether it is a journalist or anybody whose rights are being 
violated. I don't know the details of that case. But one 
journalist gets all of the attention that thousands of victims 
in China get. In fact, a week from now, you are never going to 
hear anything more about the Uighurs, but you will still hear 
people testifying about that journalist in Russia. If that is 
not a double standard, I don't know what that is.
    Mr. Gordon. Again, I will leave China to others. But in 
terms of the details of the case, the case was one of an 
investigator of human rights being pulled from her car, 
kidnapped, and then shot dead and it is not something we are 
prepared to overlook.
    Ms. Wallander. If I could just address one point you made, 
Congressman, about the Russian military. I would agree with 
you, and the Defense Department does agree with you, that there 
is great potential for working with the Russian military. That 
is why the chairman of the Joint Chiefs of Staff went to Moscow 
for the summit for himself sign the military-to-military 
framework to signal how important we believe this relationship 
is, the potential that inheres in that relationship and how we 
really would like to get serious about a military-to-military 
bilateral program with Russia.
    And as I argued in my opening statement, now we will see 
whether that opportunity is something that the Russian side 
actually steps up to. Because I can tell you that the 
Department of Defense and the Joint Chiefs of Staff in 
particular is ready to cooperate with the Russian military for 
many of the reasons that you, yourself, pointed out.
    Mr. Rohrabacher. Thank you.
    Mr. Wexler. Thank you. If I may quickly just follow up with 
respect to Jackson-Vanik, respecting very much the answer that 
in part was given, and understanding that there are other 
concerns; intellectual property, agriculture, a host of trade 
and economic concerns.
    With respect to Jackson-Vanik, what would the dynamic look 
like that would enable or encourage or prompt the 
administration to come to Congress to ask for Russia's 
graduation from Jackson-Vanik?
    Mr. Gordon. The administration is still considering the 
best way forward on this in consultations with the Congress, 
and we will look forward to your views on the subject. The 
President has said, as previous administrations have also said, 
that Jackson-Vanik was passed in a very different context for a 
very different purpose. It is more than 30 years old. Its 
purpose was to foster immigration from Russia, largely Jewish 
immigration. And the context has changed so much that it is no 
longer relevant for that purpose. And, therefore, it is 
anachronistic and we should find a way to move beyond that.
    None of that is to say that the other concerns that are 
sometimes linked to Jackson-Vanik about Russian protectionism, 
about other extraneous issues aren't important human rights. 
But using a 30-some-year-old piece of legislation to try to 
promote different goals that may be important might not be the 
best way to move forward. So we do want to find a way to 
graduate, and we look forward to working with Congress about 
finding that best path ahead.
    Mr. Wexler. Thank you. I would concur with your answer. And 
certainly respecting the large numbers of citizens in the 
country of Israel that are from Russia, clearly Jackson-Vanik 
has worked at least as to the availability of emigration. And I 
would highly encourage the administration to consider the 
proper path for moving forward.
    If I could just take my final moments, just considering how 
our policy with Russia relates to our policy in the broader 
sense in Central and Eastern Europe, a number of the most 
prominent Eastern and Central European leaders not too long ago 
wrote an open letter to President Obama in essence asking him 
to double down on our relations with Central and Eastern Europe 
to reinvest in NATO, to reinvest in transatlantic relations. 
There certainly was a degree of uncertainty or anxiety or 
concern in that letter. The writers of the letter proposed I 
think six relatively cogent steps to reinvigorate transatlantic 
relations. And I was wondering if you could just take this 
opportunity now to address that letter and address the concerns 
that were raised by those prominent leaders.
    Mr. Gordon. I appreciate the opportunity to do so, because 
that is an important issue, and I want people to know where we 
stand on it. These are well respected leaders. We know them 
well. We have worked with them for years. We like them very 
much, and we always are happy to hear from them.
    What they called for is something we are happy to support. 
They called for commitment and attention to Central Europe, 
which we think we have been paying and want to continue to pay. 
And if anyone there feels we haven't been paying enough, we 
want to make sure that they understand that we are very much 
focused on the issues that we are concerned about. They want to 
make sure that NATO's Article 5 commitment is real and so to 
we, and we will work in the context of the new look at NATO's 
strategic concept to make sure NATO is doing everything it 
needs to do to make sure its members are protected and 
reassured.
    And they asked us in the context of some of the issues we 
have been discussing, relations with Russia, missile defense, 
to make sure that we consult closely with them before we do 
anything with Russia or as we move forward, which we are 
absolutely committed to doing.
    So their weighing in on this set of issues is welcomed. We 
saw them as an administration when they were here. We will 
remain in close touch with them, and we will make sure that as 
we move forward with Russia, as I think I have said many times, 
we are not going to do so at the expense of our friends in 
Central and Eastern Europe.
    Mr. Wexler. Thank you. With that, I will turn to my three 
other colleagues for their final remarks. Mr. Delahunt.
    Mr. Delahunt. I indicated earlier that I am working on a 
particular initiative that I would put under the aegis of 
public diplomacy.
    Now, I note in the commission, the bilateral commission 
that has been established, there are various working groups. I 
would like to work with the administration on this. Myself and 
the chair of the full committee have a draft, are in the 
process of drafting a sense of Congress, resolution, or maybe 
just a concept paper. Could you identify who among the working 
groups would this be an appropriate--under which working group 
would this fall?
    Mr. Gordon. What you said about exchanges?
    Mr. Delahunt. Right. And let me be clear. This has a 
particular focus on sports.
    Mr. Gordon. Can I volunteer for participation in some 
capacity?
    Mr. Delahunt. Have you played in any sports?
    Mr. Gordon. As often as I can. Less in this job than in 
previous ones.
    Mr. Delahunt. I have been having discussions with a former 
minister of sports, who I know has communicated to high-level 
Russian authorities and he is actually a star of Russian 
hockey. But this would not just be limited to hockey, but would 
include soccer, track and field, basketball, whatever. And it 
would be focused on bringing in large numbers of young people 
from Russia and young Americans to Russia to engage in 
international competition. And, again, the feedback coming from 
Moscow has been very positive and enthusiastic. And, let's say 
goodwill games. At one point in time we had the Presidential 
Council on Health and Fitness. This is, in rough form--not 
defining it very well, but this is the core of the concept.
    Mr. Gordon. It sounds like a terrific initiative. We will 
have to look into the best way to move forward. There is an 
education and cultural exchange subcommission in the 
Presidential Commission that we have set up. Under Secretary of 
State for Public Diplomacy Judith McHale is running that. Maybe 
this fits under that category. But if it doesn't, let's talk 
about other categories, because it sounds like a great thing.
    Mr. Delahunt. I will be calling you.
    Mr. Gordon. Please do. Celeste is a marathon runner, so you 
might want to involve her as well.
    Mr. Delahunt. We will bring the Department of Defense into 
this.
    Mr. Gordon. Excellent. That sounds great.
    Mr. Delahunt. Thank you.
    Mr. Wexler. Thank you. Mr. McMahon. Ms. Berkley.
    Ms. Berkley. Yes. I also wanted to ask you, as long as you 
are doing sports with Mr. Delahunt, let me ask. As I mentioned 
to you earlier, I chair the transatlantic dialogue. Our next 
meeting is here in the United States, first weekend in December 
in New York. Many of our European Union Parliament members are 
new because of their elections, so this is the first time they 
are coming to the transatlantic dialogue. This has been going 
on for over 35 years.
    I am wondering, we usually bring a number of administration 
officials. Part of the dialogue is very much concentrated on 
Russia, Iran. I am wondering, Mr. Gordon, because we usually 
deal with State Department more than Defense, would you be 
willing to come? And to whom do I speak about this?
    Mr. Gordon. In principle, of course I know about the 
transatlantic dialogue. It is important and we would love to 
support it. If your staff gets in touch with our office, I am 
sure we will do all we can to make sure we are properly 
represented.
    Ms. Berkley. It would only take 1\1/2\ hours of your time, 
because each segment of the discussion is only about 1\1/2\ 
hours long.
    Mr. Gordon. Thank you.
    Mr. Wexler. If you think you are getting away with 
``properly represented,'' with Shelley on the march, I doubt 
it.
    Mr. Gordon. I will be on a sports delegation to Moscow that 
week. But if there is any way to work it in. No, seriously. 
Thanks. Let's be in touch about it.
    Mr. Wexler. I very much want to thank Dr. Wallander and Dr. 
Gordon. I hope everyone agrees, I think this was a particularly 
thorough and illuminating hearing. And your answers and 
responsiveness I thought were quite uncommon, and I am deeply 
grateful to both of you.
    Mr. Delahunt. Mr. Chairman, if I can, I would like to 
repeat what I said at the beginning, and that is, to offer 
accolades for the excellent work done to date in terms of 
moving this relationship along, especially with the President 
in Moscow.
    Mr. Wexler. I will let that be the last word. The 
subcommittee is adjourned. Thank you.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
